No. ______

In the Supreme Court of the United States
________
JEFFREY WOGENSTAHL,
Petitioner,
v.
STATE OF OHIO,
Respondent.
________
On Petition for Writ of Certiorari to
the Supreme Court of Ohio
________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
Kimberly S. Rigby (0078245)
Supervising Attorney
Death Penalty Department
Counsel of Record
Office of the Ohio Public Defender
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
614-466-5394
614-644-0708 (Fax)
Kimberly.Rigby@opd.ohio.gov
and
Andrew P. Avellano (0062907)
Attorney at Law
4181 East Main Street
Columbus, Ohio 43213
614-237-8050; 614-237-3505 (Fax)
drewavo@wowway.com
Counsel for Petitioner Wogenstahl

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 1

No. 19-4024
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

)
)
)
)
)
)
)

In re: JEFFREY WOGENSTAHL,
Movant.

FILED

May 12, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COLE, Chief Judge, MOORE and GIBBONS, Circuit Judges.

Jeffrey A. Wogenstahl, an Ohio death row inmate represented by counsel, filed a third-intime habeas corpus petition in the district court, which construed the filing as a successive petition
requiring prior authorization from a court of appeals and transferred the action to this court. See
28 U.S.C. § 2244(b)(3)(A); In re Sims, 111 F.3d 45, 47 (6th Cir. 1997) (per curiam). Wogenstahl
has filed a corrected application for permission to file a successive petition for a writ of habeas
corpus under 28 U.S.C. § 2254. Wogenstahl has also filed a motion to transfer this action back to
the district court. Tim Shoop, an Ohio warden proceeding through counsel, has filed a response
opposing Wogenstahl’s application and motion. Wogenstahl has filed a reply.
A jury convicted Wogenstahl of aggravated murder, kidnapping, and aggravated burglary.
The trial court sentenced Wogenstahl to death. Wogenstahl’s convictions and sentence were
affirmed on direct appeal. State v. Wogenstahl, No. C-930222, 1994 WL 686898 (Ohio Ct. App.
Nov. 30, 1994), aff’d, 662 N.E.2d 311 (Ohio 1996).

A-1

APPENDIX A

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 2

No. 19-4024
-2During the direct appeal, Wogenstahl filed a pro se application to reopen his appeal. The
application was dismissed for a lack of jurisdiction. State v. Wogenstahl, 662 N.E.2d 16 (Ohio
1996).
In September 1996, Wogenstahl filed a petition for post-conviction relief, which the trial
court denied. The Ohio Court of Appeals affirmed the decision. State v. Wogenstahl, No. C970238, 1998 WL 306561 (Ohio Ct. App. June 12, 1998) (unpublished). The Ohio Supreme Court
declined review. State v. Wogenstahl, 700 N.E.2d 332 (Ohio 1998) (table).
In January 1998, Wogenstahl sought leave for permission to file a motion for a new trial.
The trial court denied the motion. The Ohio Court of Appeals affirmed the decision. State v.
Wogenstahl, No. C-980175, 1999 WL 79052 (Ohio Ct. App. Feb. 19, 1999) (unpublished). The
Ohio Supreme Court declined review. State v. Wogenstahl, 710 N.E.2d 716 (Ohio 1999) (table).
In March 1998, Wogenstahl, acting pro se, unsuccessfully filed a delayed application to
reopen his direct appeal. State v. Wogenstahl, 700 N.E.2d 1254 (Ohio 1998) (per curiam).
In September 2003, Wogenstahl filed another motion for a new trial. The trial court denied
the motion. The Ohio Court of Appeals affirmed the decision. State v. Wogenstahl, 970 N.E.2d
447 (Ohio Ct. App. 2004). The Ohio Supreme Court declined review. State v. Wogenstahl, 824
N.E.2d 93 (Ohio 2005) (table).
In January 2014, Wogenstahl again sought leave to file a new trial motion. The trial court
denied the request. The Ohio Court of Appeals affirmed the decision. State v. Wogenstahl, No.
C-140683, 2015 WL 9392744 (Ohio Ct. App. Dec. 23, 2015). The Ohio Supreme Court declined
review. State v. Wogenstahl, 71 N.E.3d 301 (Ohio 2017) (table).
In October 2015, Wogenstahl filed an application to reopen his direct appeal, challenging
the trial court’s jurisdiction to adjudicate the aggravated murder charge. The Ohio Supreme Court
permitted the appeal and held that the trial court had jurisdiction under Ohio Revised Code §
2901.11(D). State v. Wogenstahl, 84 N.E.3d 1008 (Ohio 2017).
Wogenstahl filed his initial habeas petition in October 1999. The district court permitted
discovery. Wogenstahl filed an amended petition in June 2003. The district court held the case in

A-2

APPENDIX A

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 3

No. 19-4024
-3abeyance, which permitted Wogenstahl to exhaust state court remedies. After the case was
reopened, the district court conducted an evidentiary hearing and denied the petition. We affirmed
the decision. Wogenstahl v. Mitchell, 668 F.3d 307 (6th Cir. 2012).
On May 3, 2017, Wogenstahl filed a motion to proceed in forma pauperis accompanied by
several attached documents, including a second-in-time habeas petition. The magistrate judge
construed the motion as a successive petition and issued an order transferring the action to this
court; the order was stayed until the time to appeal to the district court had elapsed. On May 8,
2017, Wogenstahl filed his second-in-time habeas petition. On March 27, 2018, the district court
transferred the petition to this court. On April 16, 2018, Wogenstahl filed a corrected application
for permission to file a second or successive petition. He also filed a motion to transfer the case
back to the district court. The warden opposed both the application and the motion. We denied
the transfer motion and granted Wogenstahl permission to file his second-in-time petition. In re
Wogenstahl, 902 F.3d 621 (6th Cir. 2018).

Litigation related to that petition remains pending

before both the district court and the state post-conviction court. See Wogenstahl v. Warden, 17cv-298 (S.D. Ohio); State v. Wogenstahl, No. B-9206287 (Hamilton Cty. Court of Common Pleas).
On May 28, 2019, Wogenstahl filed a motion to proceed in forma pauperis, to which he
attached a successive habeas petition. The magistrate judge issued a show-cause order requiring
Wogenstahl to explain why the petition should not be construed as a successive petition and
transferred to this court. Wogenstahl filed his petition. In response to the show-cause order,
Wogenstahl explained that the Ohio Supreme Court’s decision denying his challenge to the trial
court’s judgment constituted a new judgment.

The warden submitted that Wogenstahl’s

numerically third petition attacked the same state-court judgment as the first petition. The
magistrate judge issued the transfer order but delayed its effectiveness until the time to file an
appeal to the district court had expired. Wogenstahl filed objections. The warden filed a response
in opposition. The magistrate judge issued a supplemental report recommending that the order be
allowed to take effect. Wogenstahl filed objections. The warden filed a response in opposition.
The district court overruled the objections and transferred the case.

A-3

APPENDIX A

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 4

No. 19-4024
-4On November 4, 2019, Wogenstahl filed a corrected motion for leave to file a second or
successive petition. Wogenstahl also filed a motion to transfer this case to the district court. The
warden filed a response opposing the application and the motion. Wogenstahl filed a reply.
This case does not raise any issues concerning the propriety of retroactively applying the
gate-keeping provisions of the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
to any pre-AEDPA conduct, as Wogenstahl’s initial petition was filed after AEDPA’s effective
date of April 24, 1996. See Landgraf v. USI Film Prods., 511 U.S. 244, 275 (1994); In re Sonshine,
132 F.3d 1133, 1135 (6th Cir. 1997).
An application for permission from this court to file a second or successive habeas petition
must not involve a claim that has been raised in a prior petition. 28 U.S.C. § 2244(b)(1). A new
claim will nevertheless be dismissed unless:
(A)
the application shows that the claim relies on a new rule of constitutional
law, made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable; or
(B)(i) the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(ii)
the facts underlying the claim, if proven and viewed in light of the evidence
as a whole, would be sufficient to establish by clear and convincing evidence that,
but for constitutional error, no reasonable factfinder would have found the applicant
guilty of the underlying offense.
28 U.S.C. § 2244(b)(2). The applicant must make a prima facie showing that the application
satisfies the statutory requirements. 28 U.S.C. § 2244(b)(3)(C); In re Jones, 652 F.3d 603, 605
(6th Cir. 2010). “[A] prima facie showing means sufficient allegations of fact combined with some
documentation that would warrant fuller exploration in the district court.” In re Campbell, 874
F.3d 454, 459 (6th Cir. 2017) (per curiam) (citing Keith v. Bobby, 551 F.3d 555, 557 (6th Cir.
2009)).
“[N]ot all second-in-time petitions are ‘second or successive.’” In re Coley, 871 F.3d 455,
457 (6th Cir. 2017) (quoting Panetti v. Quarterman, 551 U.S. 930, 944 (2007)). “[A] numerically
second petition is not properly termed ‘second or successive’ to the extent it asserts claims whose

A-4

APPENDIX A

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 5

No. 19-4024
-5predicates arose after the filing of the original petition.” Jones, 652 F.3d at 605. To determine
whether a petition is second or successive, the abuse of the writ standard is applied. In re Bowen,
436 F.3d 699, 704 (6th Cir. 2006) (collecting cases). “Under the abuse of the writ doctrine, a
numerically second petition is ‘second’ when it raises a claim that could have been raised in the
first petition but was not so raised, either due to deliberate abandonment or inexcusable neglect.”
Id. (citing McCleskey v. Zant, 499 U.S. 467, 489 (1991)). Additionally, “the phrase ‘second or
successive’ ‘must be interpreted with respect to the judgment challenged.’” In re Tibbetts, 869
F.3d 403, 406 (6th Cir. 2017) (quoting Magwood v. Patterson, 561 U.S. 320, 332-33 (2010)). That
is, a petition is not “second or successive” if it is the initial challenge to a specific state court
judgment, id. (citing In re Stansell, 828 F.3d 412, 415 (6th Cir. 2016)), or asserts a ground for
relief that was not ripe at the time the initial petition was filed. Id. (citing Panetti, 551 U.S. at 94547).
Wogenstahl’s third-in-time petition attacks the same judgment as his initial petition did.
He therefore needs prior authorization before filing it in district court. Burton v. Stewart, 549 U.S.
147, 152-53 (2007). Wogenstahl asserts, however, that this numerically third petition is not
successive because he seeks review of a new judgment, that is, the Ohio Supreme Court opinion
that denied his challenge to the trial court’s jurisdiction to adjudicate the aggravated murder
charge. While petitions based on “new judgments” are not successive petitions, Magwood, 561
U.S. at 332-33, the Ohio Supreme Court opinion Wogenstahl claims is a new judgment is
substantively different from the “new judgments” that entitle an inmate to a new habeas petition.
Generally, a habeas petition based on a state appellate court decision where the petitioner’s
case was reopened for direct review does not constitute a successive petition. Storey v. Vasbinder,
657 F.3d 372, 378 (6th Cir. 2011). That is because the state appellate court decision resulting from
a reopened direct review is a “new judgment.” Id.; see also Jimenez v. Quarterman, 555 U.S. 113,
120 (2009) (holding that a previously final Texas judgment became nonfinal when the Texas Court
of Appeals reopened the inmate’s direct appeal). The cases espousing these rules involved plenary
direct appellate review; that is, a new direct appeal where the defendant was permitted to raise any

A-5

APPENDIX A

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 6

No. 19-4024
-6perceived error in the trial court proceedings, just as he was in the first direct review. Jimenez,
555 U.S. at 116 (noting that Jimenez was afforded “an out-of-time appeal . . . so that he [could],
with the aid of counsel, obtain a meaningful appeal” (quoting Ex Parte Jimenez, No. 74,433 (Tex.
Crim. App. Sept. 25, 2002) (per curiam)); Storey, 657 F.3d at 376 (noting that the Michigan Court
of Appeals considered and rejected all ten of Storey’s claims).
Direct review was reopened in those cases because the first direct review was deficient.
Storey’s direct review was marred by ineffective counsel. 657 F.3d at 377. Jimenez’s direct appeal
was dismissed after his attorney filed an Anders brief and notification of Jimenez’s right to file a
pro se appellate brief was sent to the wrong prison. 555 U.S. at 115-16. Consideration of habeas
petitions arising from reopened direct appeals was necessary, we explained, because “a petitioner
should be given the same clean slate with respect to habeas review as a defendant whose counsel
did not ‘bungle[]’ his first direct appeal.” Storey. 657 F.3d at 377 (alteration in original).
That is not the situation here. Although it is true that the Ohio Supreme Court granted
Wogenstahl’s motion to “reopen [his] direct appeal,” State v. Wogenstahl, 49 N.E.3d 318 (Ohio
2016) (table), it did so only to consider a single, narrow issue: “[d]id the [Ohio] trial court have
jurisdiction over Wogenstahl’s aggravated-murder charge?” State v. Wogenstahl, 84 N.E.3d 1008,
1009 (Ohio 2017). Unlike in Storey or Jimenez, Wogenstahl’s first direct appeal suffered no
deficiencies and his reopened direct appeal was not intended to provide a full, plenary appeal of
his conviction. Instead, the Ohio Supreme Court explained that it granted Wogenstahl’s motion
only “[b]ecause a challenge to subject-matter jurisdiction . . . may be raised at any time.” Id. at
1012. Wogenstahl received a clean slate from which to seek habeas review of his conviction.
Indeed, he has already sought habeas review of that conviction twice. This petition is successive.
Rather than attempt to satisfy the statutory requirements to obtain permission to file a
successive petition, Wogenstahl argues that his challenge to the trial court’s subject-matter
jurisdiction can be raised at any time and cannot be waived or forfeited. That argument is an
insufficient basis to grant relief under 28 U.S.C. § 2244(b).

A-6

APPENDIX A

Case: 19-4024

Document: 13-1

Filed: 05/12/2020

Page: 7

No. 19-4024
-7Wogenstahl’s application for permission to file a successive habeas corpus petition is
DENIED. Wogenstahl’s motion to transfer is also DENIED.1
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

1

That said, we acknowledge that Wogenstahl has raised certain claims related to subject-matter
jurisdiction in state post-conviction court, where Wogenstahl is now proceeding in light of the
successive petition we authorized last year. See App. R. 9 at 9 n.2 (noting “claims Fifty-Two
through Fifty-Five” of Wogenstahl’s “[p]ending . . . second Post-conviction petition before the
Honorable Judge Dinkelacker of the Hamilton County Court of Common Pleas”); see also 17-cv298, R.36-2 (Second State Post-Conviction Petition) (Page ID #1675–86). Today’s ruling should
in no way be taken as opining on the merits of those still-pending claims.

A-7

APPENDIX A

Case: 1:19-cv-00403-TMR-MRM Doc #: 20 Filed: 10/07/19 Page: 1 of 4 PAGEID #: 372

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
JEFFREY A. WOGENSTAHL,
Petitioner,

:

- vs -

Case No. 1:19-cv-403
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

TIM SHOOP, Warden,
Chillicothe Correctional Institution,
:
Respondent.

DECISION AND ORDER OVERRULING OBJECTIONS TO
TRANSFER ORDER

This capital habeas corpus case is before the Court on Petitioner’s Objections (ECF No.
18) to the Supplemental Report and Recommendations of the Magistrate Judge (ECF No. 17)
relating to the Transfer Order (ECF No. 11) and the Warden’s Response to those Objections (ECF
No. 19).
An order to transfer a case to the circuit court for determination of whether it should be
permitted to proceed under 28 U.S.C. § 2244(b) is not case dispositive and is therefore within the
Magistrate Judge’s initial decisional authority. Because only questions of law are involved, the
District Court reviews the matter de novo under Fed.R.Civ.P. 72(a).
This is Jeffrey Wogenstahl’s third-in-time habeas case challenging his conviction for
aggravated murder and capital sentence. The first ended in judgment upholding the conviction.
Wogenstahl v. Mitchell, No. 1:99-cv-843, 2007 U.S. Dist. LEXIS 67388 (S.D. Ohio Sep. 12,

1

A-8

APPENDIX B

Case: 1:19-cv-00403-TMR-MRM Doc #: 20 Filed: 10/07/19 Page: 2 of 4 PAGEID #: 373

2007), aff’d 668 F.3d 307 (6th Cir. 2012), cert den. sub nom Wogenstahl v. Robinson, 568 U.S. 902
(2012). After affirming this Court’s finding that Wogenstahl’s second-in-time petition (No. 1:17cv-298) was also second-or-successive, the United States Court of Appeals for the Sixth Circuit
gave him permission to proceed in that case. 902 F.3d 621 (6th Cir. 2018). That case is now stayed
on Wogenstahl’s motion pending exhaustion in state court. When he filed this third case, the
Magistrate Judge ordered him to show cause why it should not be transferred (Order, ECF No. 5).
Despite several rounds of briefing, he has failed to do so.
Wogenstahl’s theory of why he does not need circuit court permission is that he has
received a new judgment in his state case (Response to Show Cause Order, ECF No. 9, PageID
315). On his motion, the Supreme Court of Ohio reopened his direct appeal to consider whether
the Hamilton County, Ohio, Court of Common Pleas that tried him had territorial jurisdiction to
do so. Upon conclusion of those proceedings, it concluded the trial court did have jurisdiction and
left the conviction and sentence unchanged. State v. Wogenstahl, 150 Ohio St. 3d 571, 2017-Ohio6873, cert. den. sub nom. Wogenstahl v. Ohio, 138 S.Ct. 2576 (2018).
Wogenstahl argues his new appellate judgment from the Ohio Supreme Court puts him in
the same position as the petitioners in Magwood v. Patterson, 561 U.S. 320 (2010), and Storey v.
Vasbinder, 657 F.3d 372 (6th Cir. 2011). In Magwood the petitioner had obtained a conditional
writ and a new sentencing hearing; the Supreme Court held a second-in-time habeas application
challenging the new sentence was not second-or-successive. 561 U.S. at 323-24. The Sixth Circuit
applied Magwood in King v. Morgan, 807 F.3d 154, 156 (6th Cir. 2015), and In re Stansell, 828
F.3d 412, 414 (6th Cir. 2016), to hold petitioners could challenge old convictions in new habeas
petitions without satisfying 28 U.S.C. § 2244(b) because a new trial court judgment was involved.
King, 807 F.3d at 156 (emphasis in original).

2

A-9

APPENDIX B

Case: 1:19-cv-00403-TMR-MRM Doc #: 20 Filed: 10/07/19 Page: 3 of 4 PAGEID #: 374

Storey involves a new appellate judgment rather than a new trial court judgment. However,
that new direct appeal was ordered by federal court in the first-in-time habeas case because of
ineffective assistance of appellate counsel. 657 F.3d at 376. Wogenstahl’s situation is importantly
different. He did not receive a reopened direct appeal as a result of anything a federal court did;
rather, he applied for reopening directly to the Supreme Court of Ohio and was successful. 2017Ohio-6873. But suppose he had been unsuccessful. He would still have received a new state court
appellate judgment, albeit a completely negative one. Would that refusal to change the trial court
judgment or even to consider changing it entitled him to fill a new habeas petition without passing
through the § 2244(b) gateway? The circuit court is of course free to extended Storey to that
situation, but the result would be to completely undercut § 2244(b). In this Court’s experience,
many long-term prisoners who have already lost one round of habeas will go back to the convicting
trial court with a motion to vacate the judgment on some sort of jurisdictional basis. The arguments
usually runs “my conviction is void for lack of jurisdiction because _________.” When these
arguments are successful1 and a new state court judgment is entered, King and Stansell teach that
an ensuing habeas application does not need circuit court permission. But when the motion is
unsuccessful, under Ohio law the defendant has a right to appeal. Under Wogenstahl’s theory, if
the appellate court also denies relief, the defendant could still come back to federal court with a
new habeas application. Wogenstahl offers no numerical limit to his proposed new rule; an
unsuccessful defendant could continue to file repeated petitions as many times as the state courts
turned him down. It was on this logic that the Magistrate Judge rejected extending Magwood and
Storey to this case, and the Court finds no error in that logic.
Given that the District Court has no jurisdiction to decide a second-or-successive habeas

1

A common successful argument has been that the trial court did not impose a required term of post-release control.

3

A-10

APPENDIX B

Case: 1:19-cv-00403-TMR-MRM Doc #: 20 Filed: 10/07/19 Page: 4 of 4 PAGEID #: 375

case and given further that lack of jurisdiction is not waivable, the Magistrate Judge recommends
erring, if at all, on the side of a transfer because an erroneous ruling will lead to a reversal after
many years of wasted effort. Calling this a “judicial economy” argument, Wogenstahl objects. He
says the “law is clear that his petition is properly before this Court[.]” (ECF No. 18, PageID 362).
An advocate’s assertion that the law is clear does not make it so. The Court has accepted above
the Magistrate Judge’s analysis of why this case is second-or-successive on a finding that there is
no plainly applicable precedent covering this case, to wit, a new appellate judgment confirming an
unchanged trial court judgment.
Accordingly, Petitioner’s Objections are OVERRULED and the Clerk is ordered to transfer
this case to the Sixth Circuit for a determination under 28 U.S.C. § 2244(b) of whether it may
proceed or whether Petitioner needs no such permission.

October ___,
7 2019.

s/Thomas M. Rose
_____________________________
Thomas M. Rose
United States District Judge

4

A-11

APPENDIX B

